                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A09070062                                                                  Page 1 of 1



                 We assessed an allegation received via an NSF Program Officer 1 from an external data
         evaluator2 for research supported by NSF. 3 The evaluator was concerned that the university's
         request for original data would compromise confidentiality promises made in consent forms and
         the original IRB protocol. The university IRB apparently has approved the proposed action.
         There is no apparent violation of NSF rule or regulation.

                    Accordingly, this case is closed.




         1   Redacted.
         2   Redacted.
         3   Redacted.




NSF OIG Form 2 11/02
